 Department of Health and Human Services
                    OFFICE OF
               INSPECTOR GENERAL




NEW JERSEY DID NOT ALWAYS CLAIM
FEDERAL MEDICAID REIMBURSEMENT
FOR PERSONAL CARE SERVICES MADE
    BY BAYADA NURSES, INC., IN
 ACCORDANCE WITH FEDERAL AND
       STATE REQUIREMENTS

   Inquiries about this report may be addressed to the Office of Public Affairs at
                            Public.Affairs@oig.hhs.gov.




                                                    Gloria L. Jarmon
                                                 Deputy Inspector General

                                                      September 2012
                                                       A-02-10-01001
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although a
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements.

Pursuant to section 1905(b) of the Act, the Federal Government pays its share of a State’s
medical assistance expenditures under Medicaid based on the Federal medical assistance
percentage (FMAP), which varies depending on the State’s relative per capita income.

The American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act), enacted
February 17, 2009, provided, among other initiatives, fiscal relief to States to protect and
maintain State Medicaid programs in a period of economic downturn. For the recession
adjustment period (October 1, 2008, through December 31, 2010), the Recovery Act provided an
estimated $87 billion in additional Medicaid funding based on temporary increases in States’
FMAPs.

In New Jersey, the Department of Human Services (State agency) is the State agency responsible
for operating the Medicaid program. Within the State agency, the Division of Medical
Assistance and Health Services administers the Medicaid program. The State agency’s Division
of Disability Services oversees the State’s personal care services program.

Pursuant to Federal regulations (42 CFR § 440.167), personal care services are generally
furnished to individuals residing in their homes and not residing in hospitals, nursing facilities,
intermediate care facilities for persons with intellectual disabilities, or institutions for mental
diseases. A physician authorizes personal care services for Medicaid beneficiaries within a plan
of treatment or according to a service plan approved by the individual State. Examples of
personal care services are cleaning, shopping, grooming, and bathing.

Pursuant to chapter 60 of the New Jersey Administrative Code Title 10, (1) a registered nurse
must perform an initial assessment and a reassessment of the beneficiary’s need for personal care
services at least once every 6 months; (2) a registered nurse must provide direct supervision of
the personal care assistant at least once every 60 days or more often, as required; and (3)
personal care assistants must receive inservice education from the provider.

Bayada Home Health Care (Bayada), headquartered in Moorestown, New Jersey, provides home
health and personal care services to children and adults in 18 States. During our audit period,
Bayada operated 18 offices that individually oversaw Medicaid personal care services in New
Jersey and had the largest geographic coverage of any personal care provider in the State.




                                                 i
OBJECTIVE

The objective of our review was to determine whether the State agency claimed Federal
Medicaid reimbursement, for personal care services claims that Bayada submitted, in accordance
with Federal and State requirements.

SUMMARY OF FINDINGS

The State agency did not claim Federal Medicaid reimbursement, for some personal care services
claims that Bayada submitted, in accordance with Federal and State requirements. Of the 100
claims in our random sample, 90 claims complied with Federal and State requirements, but 10
claims did not. Of the 10 noncompliant claims, 1 contained more than 1 deficiency.
Specifically:

   •   For nine claims, there was no nursing supervision.

   •   For one claim, the personal care assistant did not receive inservice education.

   •   For one claim, there was no nursing assessment.

These deficiencies occurred because some of Bayada’s office managers did not ensure that
personal care services claims complied with certain Federal and State requirements.

Based on our sample results, we estimated that the State improperly claimed $774,274 in Federal
Medicaid reimbursement during our January 1, 2008, through June 30, 2009, audit period.

RECOMMENDATIONS

We recommend that the State agency:

   •   refund $774,274 to the Federal Government and

   •   direct Bayada to ensure that all of its offices comply with Federal and State requirements.

BAYADA HOME HEALTH CARE COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, Bayada disagreed with most of our findings and our
recommended financial disallowance. Specifically, Bayada stated that some of the errors may be
based on different interpretations of State regulations. Bayada also provided details on its
quality assurance program for complying with Federal and State requirements.

After reviewing Bayada’s comments and the additional documentation provided, we revised our
findings and modified our statistical estimates accordingly. Bayada’s comments appear as
Appendix D. We did not include the attachments to the comments because of their volume and
inclusion of personally identifiable information.


                                                ii
STATE AGENCY COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, the State agency disagreed with our first
recommendation (financial disallowance) and did not indicate concurrence or nonconcurrence
with our other recommendation. Specifically, the State agency stated that our interpretation of
State law was flawed and that the deficiencies we identified were technical in nature. In
addition, the State agency indicated that none of our findings involved demonstrated
overpayments of any kind; rather, they related only to missing documentation. The State agency
also contended that Federal law does not provide a basis on which the Department of Health and
Human Services (HHS) may recoup Federal funds for these types of technical or documentation
deficiencies when State law does not require repayment or recoupment.

After reviewing the State agency’s comments, we maintain that our findings and
recommendations are valid. Specifically, we maintain that our reading of State law is valid and
not contrary to its intent. Regarding the State agency’s contention that Federal law does not
provide a basis for HHS to recoup Federal funds related to technical or documentation-related
deficiencies, we maintain that OMB Circular A-87 cost principles and CMS’s State Medicaid
Manual explicitly require States to document allowable costs. The State agency’s comments
appear as Appendix E.




                                               iii
                                                   TABLE OF CONTENTS
                                                                                                                              Page

INTRODUCTION..............................................................................................................1

          BACKGROUND .....................................................................................................1
            Medicaid Program ..............................................................................................1
            American Recovery and Reinvestment Act of 2009..........................................1
            New Jersey’s Medicaid Program .......................................................................1
            New Jersey’s Personal Care Services Program .................................................1
            Federal and State Requirements for Personal Care Services .............................2
            Bayada Home Health Care.................................................................................2
            Office of Inspector General Audits ....................................................................2

          OBJECTIVE, SCOPE, AND METHODOLOGY ...................................................2
            Objective ............................................................................................................2
            Scope .................................................................................................................3
            Methodology ......................................................................................................3

FINDINGS AND RECOMMENDATIONS ....................................................................4

          NO NURSING SUPERVISION ..............................................................................4

          INSERVICE EDUCATION REQUIREMENT NOT MET ....................................5

          NO NURSING ASSESSMENT ..............................................................................5

          CAUSE OF UNALLOWABLE CLAIMS...............................................................5

          ESTIMATION OF THE UNALLOWABLE AMOUNT ........................................5

          RECOMMENDATIONS .........................................................................................6

          BAYADA COMMENTS AND
           OFFICE OF INSPECTOR GENERAL RESPONSE ...........................................6
            Inservice Education Requirement Not Met........................................................6
            No Nursing Supervision .....................................................................................6
            No Nursing Assessment .....................................................................................7

          STATE AGENCY COMMENTS AND
           OFFICE OF INSPECTOR GENERAL RESPONSE……………………………7
            Inservice Education Requirement Not Met........................................................8
            No Nursing Supervision .....................................................................................8
            No Nursing Assessment .....................................................................................9




                                                                     iv
APPENDIXES

    A: FEDERAL AND NEW JERSEY REQUIREMENTS FOR
       PERSONAL CARE SERVICES

    B: SAMPLE DESIGN AND METHODOLOGY

    C: SAMPLE RESULTS AND ESTIMATES

    D: BAYADA HOME HEALTH CARE COMMENTS

    E: STATE AGENCY COMMENTS




                               v
                                       INTRODUCTION

BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the Medicaid program. Each
State administers its Medicaid program in accordance with a CMS-approved State plan.
Although the State has considerable flexibility in designing and operating its Medicaid program,
it must comply with applicable Federal requirements.

Pursuant to section 1905(b) of the Act, the Federal Government pays its share of a State’s
medical assistance expenditures under Medicaid based on the Federal medical assistance
percentage (FMAP), which varies depending on the State’s relative per capita income.

American Recovery and Reinvestment Act of 2009

The American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act), enacted
February 17, 2009, provided, among other initiatives, fiscal relief to States to protect and
maintain State Medicaid programs in a period of economic downturn. For the recession
adjustment period (October 1, 2008, through December 31, 2010), the Recovery Act provided an
estimated $87 billion in additional Medicaid funding based on temporary increases in States’
FMAPs.

New Jersey’s Medicaid Program

In New Jersey, the Department of Human Services (State agency) is the State agency responsible
for operating the Medicaid program. Within the State agency, the Division of Medical
Assistance and Health Services administers the Medicaid program. The State agency uses the
Medicaid Management Information System, a computerized payment and information reporting
system, to process and pay Medicaid claims, including personal care services claims. From
January 1, 2008, through June 30, 2009, the FMAP in New Jersey varied from 50 percent to
61.59 percent.

New Jersey’s Personal Care Services Program

New Jersey’s personal care services program is operated by the State agency’s Division of
Disability Services. The program provides beneficiaries with long-term chronic or maintenance
health care, as opposed to short-term skilled care required for some acute illnesses. The New
Jersey Administrative Code (NJAC) 10:60-3.1 states that personal care services “include
personal care, household duties and health related tasks performed by a qualified individual in a
beneficiary’s place of residence, under the supervision of a registered nurse, as certified by a
physician in accordance with a written plan of care.”



                                                1
Federal and State Requirements for Personal Care Services

The State and providers must comply with certain Federal and State requirements in determining
and redetermining whether beneficiaries are eligible for personal care services. Section 1905(a)(24)
of the Act and implementing Federal regulations (42 CFR § 440.167), require that personal care
services be (1) authorized for an individual by a physician within a plan of treatment or according
to a service plan approved by the individual State; (2) provided by an individual who is qualified to
provide such services and who is not a member of the individual’s family; and (3) furnished in a
home or, at the State’s option, in another location.

Pursuant to Office of Management and Budget (OMB) Circular A-87, Cost Principles for State,
Local, and Indian Tribal Governments, Att. A, § C.1.c (2 CFR, pt. 225, App. A, § C.1.c), to be
allowable under a Federal award, costs must be authorized or not prohibited by State or local
laws or regulations.

Pursuant to chapter 60 of the NJAC Title 10, (1) a registered nurse must perform an initial
assessment and a reassessment of the beneficiary’s need for personal care services at least once
every 6 months; (2) a registered nurse must provide direct supervision of the personal care
assistant at least once every 60 days or more often, as required; and (3) personal care assistants
must receive inservice education from the provider.

Appendix A lists specific Federal and New Jersey requirements for personal care services.

Bayada Home Health Care

Bayada Home Health Care (Bayada), headquartered in Moorestown, New Jersey, provides home
health and personal care services to children and adults in 18 States. During our audit period,
Bayada operated 18 offices that individually oversaw Medicaid personal care services in New
Jersey and had the largest geographic coverage of personal care providers in the State. Each of
Bayada’s offices was responsible for implementing companywide policies and procedures for
providing personal care services.

Office of Inspector General Audits

This audit is one of a series of audits that addresses Medicaid personal care services providers
that we identified as high risk. We are conducting these audits in response to the estimated
$87 billion in increased FMAP under the Recovery Act.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

The objective of our review was to determine whether the State agency claimed Federal
Medicaid reimbursement, for personal care services claims that Bayada submitted, in accordance
with Federal and State requirements.




                                                 2
Scope

Our review covered 784,945 claim lines totaling $34,709,694 ($19,104,399 Federal share) that
Bayada submitted for the period January 1, 2008, through June 30, 2009. (We refer to these
lines in this report as “claims.”)

During our audit, we did not review the overall internal control structure of Bayada, the State
agency, or the Medicaid program. Rather, we limited our internal control review to those
controls related to the objective of our audit.

We conducted fieldwork at the State agency’s offices in Trenton, New Jersey, and at 12 of
Bayada’s 18 offices throughout the State. 1

Methodology

To accomplish our objective, we:

    •   reviewed applicable Federal and State regulations and guidelines;

    •   held discussions with State agency officials to gain an understanding of the personal care
        services program;

    •   obtained from the State agency a database of Medicaid personal care services claims that
        the State paid to Bayada;

    •   identified a sampling frame of 784,945 personal care services claims, totaling
        $34,709,694 ($19,104,399 Federal share);

    •   selected a simple random sample of 100 claims from the sampling frame of 784,945
        claims;

    •   reviewed the provider’s documentation supporting each sample claim; and

    •   estimated the unallowable Federal Medicaid reimbursement paid in the population of
        784,945 claims.

Appendix B describes our sample design and methodology.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

1
 We visited only offices that oversaw personal care services claims included in our random sample. As a result, we
did not visit 6 of Bayada’s 18 offices.


                                                        3
                                 FINDINGS AND RECOMMENDATIONS

The State agency did not claim Federal Medicaid reimbursement, for some personal care services
claims that Bayada submitted, in accordance with Federal and State requirements. Of the 100
claims in our random sample, 90 claims complied with Federal and State requirements, but 10
claims did not. Of the 10 noncompliant claims, 1 contained more than 1 deficiency. Table 1
lists the types of deficiencies and the number of claims for each type.

                          Table 1: Summary of Deficiencies in Sampled Claims

                                                                            Number of
                               Type of Deficiency
                                                                        Unallowable Claims 2
                No nursing supervision                                           9
                 Inservice education requirement not met                         1
                No nursing assessment                                            1

These deficiencies occurred because some of Bayada’s office managers did not ensure that
personal care services claims complied with certain Federal and State requirements.

Based on our sample results, we estimate that the State agency improperly claimed $774,274 in
Federal Medicaid reimbursement during our January 1, 2008, through June 30, 2009, audit
period.

NO NURSING SUPERVISION

NJAC 10:60-3.5(a)(2) states:

           Direct supervision of the personal care assistant must be provided by a registered
           nurse at a minimum of one visit every 60 days, initiated within 48 hours of the start
           of service, at the beneficiary’s place of residence during the personal care assistant’s
           assigned time. The purpose of the supervision is to evaluate the personal care
           assistant’s performance and to determine that the plan of care has been properly
           implemented .… Additional supervisory visits shall be made as the situation
           warrants, such as a new [personal care assistant] or in response to the physical or
           other needs of the beneficiary.

For 9 of the 100 claims in our sample, there was no evidence that a registered nurse directly
supervised a new personal care assistant before that assistant provided the personal care services
we sampled.




2
    The total exceeds 10 because 1 claim contained more than 1 error.


                                                           4
INSERVICE EDUCATION REQUIREMENT NOT MET

Pursuant to NJAC 10:60-1.2, personal care assistants must successfully complete a minimum of
12 hours of inservice education per year offered by the provider.

For 1 of the 100 claims in our sample, there was no evidence that the personal care assistant
received the minimum required inservice education during the calendar year in which the service
was provided or during the preceding 12 months. 3

NO NURSING ASSESSMENT

Pursuant to NJAC 10:60-3.5(a), a registered nurse must prepare an assessment within 48 hours
after the start of service. The registered nurse must also perform a reassessment visit at least
every 6 months to reevaluate the beneficiary’s need for continued care.

For 1 of the 100 claims in our sample, the provider did not perform the required reassessment
within 6 months of the previous reassessment.

CAUSE OF UNALLOWABLE CLAIMS

The unallowable claims occurred because some of Bayada’s office managers did not ensure that
personal care services claims complied with certain Federal and State requirements. Of the 12
Bayada offices that oversaw personal care services claims included in our random sample,
9 offices oversaw 57 sample claims that complied with Federal and State requirements.
However, the 3 offices that oversaw the remaining 43 sample claims had 10 claims that
contained deficiencies. Table 2 details the deficiencies by type and office.

                        Table 2: Number of Deficiencies by Type and Office

                     Nursing            Inservice            Nursing             Total               Sample
      Office
                    Supervision         Education           Assessment        Deficiencies           Claims
      Clifton           6                   --                   1                 7                   18
    Bloomfield          2                   --                  --                 2                   15
      Union             1                   1                   --                 2                   10

ESTIMATION OF THE UNALLOWABLE AMOUNT

Of the 100 personal care services claims that we sampled, 10 were not claimed in accordance
with Federal and State requirements. Based on our sample results, we estimated that the State
improperly claimed $774,274 in Federal Medicaid reimbursement from January 1, 2008, through
June 30, 2009. The details of our sample results and estimates are in Appendix C.




3
 We prorated the required inservice education hours for personal care assistants who were not employed by the
beneficiary’s provider for either the entire calendar year or the preceding 12 months.


                                                        5
RECOMMENDATIONS

We recommend that the State agency:

   •   refund $774,274 to the Federal Government and

   •   direct Bayada to ensure that all of its offices comply with Federal and State requirements.

BAYADA COMMENTS AND OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, Bayada disagreed with most of our findings and our
recommended financial disallowance. Specifically, Bayada stated that some of the errors may be
based on different interpretations of State regulations. Bayada also provided details on its
quality assurance program for complying with Federal and State requirements.

After reviewing Bayada’s comments and the additional documentation provided, we revised our
findings and modified our statistical estimates accordingly. Bayada’s comments appear as
Appendix D. We did not include the attachments to the comments because of their volume and
inclusion of personally identifiable information.

Inservice Education Requirement Not Met

Bayada Comments

Bayada stated that it appears that we applied a monthly inservice requirement instead of the per
year requirement noted in NJAC 10:60-1.2. Bayada provided additional documentation to
support its position that the inservice requirement was met for eight of the nine claims that we
identified in our draft report as being in error.

Office of Inspector General Response

After reviewing the additional documentation, we agree that eight of the nine claims met the
inservice education requirements.

No Nursing Supervision

Bayada Comments

Bayada stated that the last sentence of NJAC 10:60-3.5(a)(2) (“Additional supervisory visits
shall be made as the situation warrants, such as a new [personal care assistant] or in response to
the physical or other needs of the beneficiary.”) is “an example only of when additional
supervisory visits may be needed, but not part of the regulation.” Bayada also stated that it does
not believe that the New Jersey Medicaid regulations require a supervisory visit each time an
existing employee provides services to an existing patient for the first time. Further, Bayada
stated that it believes that the requirement is for a registered nurse to provide supervision to an
aide assigned to a newly admitted client within 48 hours of the start of care. In addition, Bayada


                                                 6
stated that the regulation is tied to the start of service for each client and is client focused, not
employee focused. Finally, Bayada provided additional documentation to support its position
that nursing supervision requirements were met for the nine claims.

Office of Inspector General Response

We disagree that the last sentence of NJAC 10:60-3.5(a)(2) is not part of the regulation. The
citation clearly states that additional supervisory visits shall be made as the situation warrants,
such as a new personal care assistant. Each of the claims that we questioned were related to aide
turnover (i.e., a new aide was assigned) or weekend aides who provided services to the
associated beneficiary without receiving supervision from a registered nurse. Regarding the
additional documentation provided by Bayada for nine claims, we note that the documentation
was previously provided and did not indicate that a registered nurse directly supervised the new
personal care assistant before the assistant provided the sampled service.

No Nursing Assessment

Bayada Comments

Bayada stated that it was in compliance with nursing assessment requirements for one claim and
provided documentation to support its position.

Office of Inspector General Response

Pursuant to State regulations (NJAC 10:60-3.5(a)(2)), a registered nurse must perform a
reassessment visit at least every 6 months to evaluate the beneficiary’s need for further care.
Regarding the claim in question, Bayada stated that reassessments were performed on
December 20, 2006, and June 14, 2007. The June 14, 2007, reassessment would cover the
6-month period up to December 14, 2007. However, our sampled service date was
December 22, 2007, and another reassessment was not performed on the beneficiary until
December 31, 2007, which is 17 days after the 6-month requirement.

STATE AGENCY COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, the State agency disagreed with our first
recommendation (financial disallowance) and did not indicate concurrence or nonconcurrence
with our other recommendation. Specifically, the State agency stated that our interpretation of
State law was flawed and that the deficiencies we identified were technical in nature. In
addition, the State agency indicated that none of our findings involved demonstrated
overpayments of any kind; rather, they related only to missing documentation. The State agency
also contended that Federal law does not provide a basis on which the Department of Health and
Human Services (HHS) may recoup Federal funds for these types of technical or documentation
deficiencies when State law does not require repayment or recoupment.




                                                   7
After reviewing the State agency’s comments, we maintain that our findings and
recommendations are valid. Per OMB A-87, “To be allowable under Federal awards, costs must
meet the following general criteria: ... (c) Be authorized or not prohibited under State or local
laws or regulations.” Therefore, pursuant to OMB Circular A-87, HHS Office of Inspector
General may conduct an audit to determine whether Federal payments have been made in
violation of State laws and regulations and may recommend disallowance of Federal funding on
the findings of such an audit. In addition, failure to document services provided by a qualified
provider is a violation of section 1902(a)(27) of the Act. Further, section 2497.1 of CMS’s State
Medicaid Manual states that expenditures require adequate supporting documentation to be
allowable for Federal reimbursement. The State agency’s comments appear in their entirety as
Appendix E.

Inservice Education Requirement Not Met

State Agency Comments

The State agency stated that there is no Federal requirement that personal care assistants undergo
12 hours of annual inservice education; therefore, there is no justification for withholding
Federal funds based on a finding that documentation of such education was not provided. The
State agency further noted that that the employee associated with our one sample claim
underwent “at least 13 hours of inservice training within 14 months of the date of service.” The
State agency also indicated steps that it has taken or planned to take to prevent future violations
of the inservice education requirement.

Office of Inspector General Response

To provide a valid and payable service, personal care services must meet the Federal
requirements in section 1905(a)(24) of the Act and implementing regulations in 42 CFR
§ 440.167, which require, among other things, that personal care services be provided “by an
individual who is qualified to provide such services.” Section 4480(E) of CMS’s State Medicaid
Manual instructs States to develop qualifications for providers of personal care services. The
State implemented some of its qualification requirements for personal care assistants in
NJAC 10:60-1.2. Pursuant to this provision, personal care assistants must successfully complete
a minimum of 12 hours of inservice education per year. For the sample claim in question, this
requirement was not met. A provider that does not meet the inservice education requirement
cannot be considered a qualified provider as required by Federal regulations and, therefore,
cannot provide a valid and payable service.

No Nursing Supervision

State Agency Comments

The State agency stated that there is no Federal requirement that direct nursing supervision be
periodically performed and documented; therefore, there is no justification to withhold Federal
funds based on a finding that such documentation was not provided. The State agency further
noted that in all nine cases, HHS applied the 48-hour requirement when a personal care assistant



                                                 8
who did not previously care for the beneficiary took over care of the beneficiary. However, the
State agency stated that the regulation “does not apply the 48-hour requirement in this
circumstance,” limiting the 48-hour requirement to the initial start of service.

Office of Inspector General Response

Section 1905(a)(24) of the Act and implementing regulations at 42 CFR § 440.167 require that
personal care services be provided by a qualified individual. Section 4480(E) of CMS’s State
Medicaid Manual instructs States to develop qualifications for providers of personal care
services.

The State implemented these requirements by stating that, among other things, a qualified
“personal care assistant” in New Jersey “means a person who: … (3) Is supervised by a
registered professional nurse employed by a [Division of Disability Services]-approved
homemaker/personal care assistant provider agency” (NJAC 10:60-1.2). State regulations
further note the importance of supervision by indicating that “[a]dditional supervisory visits [by
a registered professional nurse] shall be made as the situation warrants, such as a new [personal
care assistant] or in response to the physical or other needs of the beneficiary” (NJAC 10:60-
3.5(a)(2)). Therefore, to meet the Federal definition of service, a personal care assistant must be
supervised as required by State regulations. Further, OMB Circular A-87 requires that to be
allowable under a Federal award, costs must be authorized or not prohibited by State or local
laws or regulations.

Contrary to the State agency’s comments, we did not apply a 48-hour requirement for our sample
claims. Of the nine claims in error, we found no documentation demonstrating that the personal
care assistant associated with four claims was ever supervised by a registered nurse, as required
by NJAC 10:60-3.1(b). Therefore, services provided for these four claims are not valid and
payable per Federal and State law.

For the remaining five claims, we noted that Bayada failed to provide supervision to a new
personal care assistant, as required by NJAC 10:60-3.5(a)(2). The regulation states that
“[a]dditional supervisory visits shall be made as the situation warrants, such as a new [personal
care assistant] ….” The new personal care assistant associated with these five claims did not
receive a supervisory visit from a registered nurse within a reasonable amount of time (ranging
from 8 to 37 days). Therefore, services provided for these five claims are not valid and payable
per Federal and State law.

No Nursing Assessment

State Agency Comments

The State agency stated that there is no Federal requirement that a nursing assessment be
periodically performed and documented; therefore, there is no justification to withhold Federal
funds based on a finding that such documentation was not provided. The State agency also
contended that Bayada completed an assessment within every 6-month period following the
service start date.



                                                 9
Office of Inspector General Response

To provide a valid and payable service, personal care services must meet Federal requirements in
42 CFR § 440.167, which require, among other things, that personal care services be provided
“accordance with a service plan approved by the State.” Pursuant to State regulations at NJAC
10:60-3.5(a)(1), the “registered professional nurse … shall perform an assessment and prepare a
plan of care for the personal care assistant to implement.” Further, the regulations require that “a
personal care assistant nursing reassessment visit shall be provided at least once every six
months ... to reevaluate the beneficiary’s need for continued care.” The assessment and
reassessment validate a beneficiary’s plan of care by confirming their continued need for
services. Without the required 6-month reassessment, a beneficiary’s plan of care is not valid
under NJAC 10:60-3.5(a)(3). Therefore, any claims for services provided past the 6-month
reassessment deadline are not payable per Federal and State law.

Regarding the claim in question, reassessments were performed on December 20, 2006, and
June 14, 2007. The June 14, 2007, reassessment would cover the 6-month period up to
December 14, 2007, at which time a reassessment was required. However, our sampled service
date was December 22, 2007, and another reassessment was not performed on the beneficiary
until December 31, 2007, which was 17 days after the 6-month requirement.




                                                10
APPENDIXES
              APPENDIX A: FEDERAL AND NEW JERSEY REQUIREMENTS
                         FOR PERSONAL CARE SERVICES

•    Section 1905(a)(24) of the Social Security Act and implementing Federal regulations
     (42 CFR § 440.167) permit States to elect, as an optional Medicaid benefit, personal care
     services furnished to an individual who is not an inpatient or resident of a hospital, nursing
     facility, intermediate care facility for persons with intellectual disabilities, or institution for
     mental disease. The statute specifies that personal care services must be (1) authorized for an
     individual by a physician within a plan of treatment or according to a service plan approved
     by a State, (2) provided by an individual who is qualified to provide such services and who is
     not a member of the individual’s family, and (3) furnished in a home or other location.

•    Federal regulations (42 CFR § 440.167(a)(1)) and the New Jersey Administrative Code
     (NJAC) 10:60-3.4 specify that personal care services must be authorized by a physician.

•    Office of Management and Budget Circular A-87, Cost Principles for State, Local, and
     Indian Tribal Governments (the Circular), establishes principles and standards for
     determining allowable costs incurred by State and local governments under Federal awards.
     Section C.1.c. of Attachment A to the Circular provides that to be allowable, costs must be
     authorized or not prohibited by State or local laws or regulations.

    • A registered nurse must perform an initial assessment within 48 hours of the start of service
      (NJAC 10:60-3.5(a)(1)). A reassessment visit must be performed at least once every 6
      months, or more frequently if the beneficiary’s condition warrants, to reevaluate the
      beneficiary’s need for continued care (NJAC 10:60-3.5(a)(3)).

•    A registered nurse must provide direct supervision of a personal care assistant at a minimum
     of one visit every 60 days, initiated within 48 hours of the start of service, at the beneficiary’s
     residence during the personal care assistant’s assigned time (NJAC 10:60-3.5(a)(2)). The
     purpose of the supervision is to evaluate the personal care assistant’s performance and to
     determine that the plan of care has been properly implemented. Additional supervisory visits
     must be made as the situation warrants, such as a new personal care assistant or in response
     to the physical or other needs of the beneficiary.

•    The personal care assistant must successfully complete a minimum of 12 hours inservice
     education per year offered by the provider agency (NJAC 10:60-1.2).
               APPENDIX B: SAMPLE DESIGN AND METHODOLOGY

POPULATION

The population was personal care services claim lines submitted by Bayada Home Health Care
(Bayada) in New Jersey during our January 1, 2008, through June 30, 2009, audit period that the
State claimed for Federal Medicaid reimbursement.

SAMPLING FRAME

The sampling frame was a computer file containing 784,945 detailed claim lines for personal
care services submitted by Bayada in New Jersey during our audit period. The total Medicaid
reimbursement for the 784,945 claim lines was $34,709,694 ($19,104,399 Federal share). The
Medicaid claim lines were extracted by staff of New Jersey’s Division of Medical Assistance and
Health Services. (We refer to these lines in this report as “claims.”)

SAMPLE UNIT

The sample unit was an individual Federal Medicaid claim.

SAMPLE DESIGN

We used a simple random sample to evaluate the population of Federal Medicaid claims.

SAMPLE SIZE

We selected a sample of 100 claim lines.

SOURCE OF RANDOM NUMBERS

The source of the random numbers was the Office of Audit Services’ statistical software,
RAT-STATS. We used the random number generator for our sample.

METHOD FOR SELECTING SAMPLE ITEMS

We consecutively numbered the 784,945 detailed claim lines. After generating 100 random
numbers, we selected the corresponding frame items. We created a list of 100 sample items.

ESTIMATION METHODOLOGY

We used RAT-STATS to calculate our estimates. We used the lower limit at the 90-percent
confidence level to estimate the overpayment associated with the unallowable claims.
                APPENDIX C: SAMPLE RESULTS AND ESTIMATES

                               Sample Details and Results


                                                                                 Value of
                                                                Number of       Unallowable
Claims in   Value of Frame    Sample        Value of Sample     Unallowable       Claims
 Frame      (Federal Share)    Size         (Federal Share)       Claims      (Federal Share)


784,945      $19,104,399        100             $2,368              10             $216



                              Estimated Unallowable Costs
                 (Limits Calculated for a 90-Percent Confidence Interval)

                           Point estimate                $1,697,871

                           Lower limit                        774,274

                           Upper limit                    2,621,469
                                                                                                                                  Page 1 of 4


                    APPENDIX D: BAYADA HOME HEALTH CARE COMMENTS



                ~
               l:          . ".
              3: BAYADAO                                                                                     HeadquarJeu
                                                                                                             290 Chener AV!'rlOJe
                                                                                                             Moorutown, NJ 08057
                              Home Health Care 

       March 30, 2012                                                                                        856·23 1-1 000 

                                                                                                             856·231-1955 fax 

       Mr. Kevin W. Smith                                                                                    W'WW.bayiida .com

       Audit Manager
      Department of Health & Human Services
      Office of Inspector General
      Office of Audit Services, Region U
      26 Federal Plaza, Room 3900
       New Vork, NY 10278

      RE: BAYADA Home Health Care Error ReportA-02-10-01001 Response

      Dear Mr. Smith:

      Thank you for offering BAVADA Home Health Care (former1y Bayada Nurses) the opportunity to review and respond 10
      the Office of Inspector General Report relating 10 the personal care assistant (PCA) services audit from 2009. r also
      appreciate the time you and your auditors took to speak 10 members of my staff to help clarify the audit IIndlngs.

      Members of BAYADA have spent significant time researching each afthe 19 violations cited in the draft report Based on
      the enclosed findings, some of the Violations from Itle audit may be based on dIffering in terpretations of the New JefS6y
      Medicaid Program Home Cere Services Manual, Section 10:60-1.4 Covered home health services ami the N,J.A.C.
      Section 10:60. I hope this letter and the 259 pages of supporting documentation will provide e basis for reassessing the
      violaUons and updaUng the dl<lft report

      BAYADA is e qUlllity focu:>ed company grounded In The BAYADA Way, which Is tha company's mission, viSion and core
      values. We believe thClt we must demonstrate honesty Clnd Integrity at all times which lndudes being accurate and truthfu l
      In all client CClre documentation and bnling practices.

      We have proudly provided personal care SeNJces to Medicakl beneficiaries in New Jersey since 1988. CurrenUy,
      9AYADA employs approximately 2,000 employees who provide Medicaid personal CClre assistant services to 2,700 clients
      for 43,500 hours In an average week. With this high volume of cases, BAYADA strives to provide home care services to
      our clients with the hIghest professional, ethical, and safety standards under the regulations that govern our WOOl.

      In response   to   the OIG draft report, BAYAOA proVides the following Information and attached documentation:

          •   Nine 01 the total vlolallons cited by the OIG were due   to deficiencies In "employee In-services"_

              New Jersey Administrative Code (N.JAC.) Section 10:60_1 _2. A home he8/fh aide will surx;essfully complete
              a minimum of 12 hours in-service education per year offered by the agency_
              Based on the findings In the OIG draft report. it appears the auditors applied a ' monthly" In-service requirement •
              instead of the J:!![H!! requirement stated ..bove. That Is, they based it on the month In which the aide provided
              care instead of the total hours accrued at year's end. The regulation does not specify hours must be distribu ted on
              a month by month basls_

              It Is Important 10 note there are fou r third party accreditation providers who currenlly oversee the New Jersey's
              Personal Care Program; they are the NaUonaI HomeCanng Council, JCAHO, CAHC and CHAP. Based on the
              CHAP standards and the New Jersey regUlatio ns, Bayada Is not required to adhere to a month to month standard
              for in-service education; however, there is a Commission on AccredltaUon for Home Care (CAHC) Standard IV,
              Secllon 168 which sta tes, ' Certified homemaker home health aIdes shall allend, at minimum, 12 hours of Jo.
              service each calendar year. Aides who have worked on)v a portion of the calendar yea r (such as a new hire) or
              have a doctJmen!ed period of InactMty (such as a le ave of absence) must attend a pro-rated number of In-service
              hours - a minimum of one hour of in-service pe r CCllendar month worited.' The auditors may heve referred to the
              CAHC stand ard instead of the New Jersev regulatory requIrement or the CHAP standard.

              For example, BAYADA was clted for not meeting the In-service requirements                             The date of
              service audited was 4f6/09 and the draft report states "!here was no evidence
                            Compassioll.   £WCI/CIICC.   Rdiability.
Ofrlcc of Inspector GcncralnolC: Thc dcleted text has been redacted becausc it contains personally identifiable infomlation.
                                                                                                                     Page 2 of4




   ~~AYADA· Home Health Care
 received the mInimum required In·service education during the calendar year In whIch the service was provided or
 during the preceding 12 months·, In this case, the aide dId not have the required amount of hours at the date of
 service in April: however, she did have 12 hours of In-service at the end of.the calendar year 2009 which is
 evidenced In the attached documentation. Additionally, she also had the required amount of In·service hours for
 the prior calendar year of 2008.

 OUf interpretation of the · per year" in-service requirement relates to a conventional calendar year (January
 Ihrough Decem'ber) which Is consistent with stale and accreditation standards and Industry practice,

 In applying the in-service education requirement on a conventional calendar basis, 7 of the 9 aides for which an
 exception was initially Identified by the OIG would have met the In-service requirements as required under the
 Administrative Code. (Pleese see BAYADA's affached pages 1-33 and 54-184 which detail the timing of the In­
 seNies education provided for each of the 7 aides affected and conformance wilh the Administrative Code when
 applied on a standard calendar year basis.)

 In addition, the regulations require providers to offer at least 12 hours of in-services each calend ar year; however,
 the hours associated with attendance of in-service education from an outside source is also acceptable. It is
 common practice in home care for an aide to wol1<: for mu!tfple agencies. If an aide can show appropriate
 documentation of cOfllpletlng the required in-service hours from another approved Medicaid provider, it is deemed
 acceptable by the state and accrediting bodIes. This cIrcumstance would apply to one of the cited deflclencles for
 which an exception is noted. (Please see SA YADA 's attached pages 34-38 which detail both the Internal and
 external in~service education received by this aide and conformance with the Administrative Code when applied
 on a' standard calendar year basis.)

After conSideration of the above, only one instance was noted In wh ich the aide did not partiCipate In the required
number of in-servIce educatIon hours for the period assessed. (Please see BAYADA's attached pages 39-53,)

 Nine of the tota l violations cited by the OIG were due to deficiencies in -nursing supervision-.

N.J.A.C., Section10:60.3.5(a) (2), states: Direct supervision of the personal care assistant shall be provided by a
registered nurse at a minimum of one visit every 60 days, initiated within 48 hours of the start of service, at the
beneficiary's place of residence during the personal care asslstant's assigned time. The purpose of the
supeNision is to evaluate the personal care assistant's performance snd to determine that the plan of care has
been properly implemented. At this time, appropriate revisions to the plan of care shall be made. Additional
supeNisory visits shall be made as the situation warrants, such as a new peA or in response 10 the physical or
other needs of Ihe beneficiary. We believe this last sentence Is an example only of when additional supervisory
visils may be needed, but not part of the regu!auon.

Based on the findings of the OIG draft report, BAYADA was consistently providing supervIsion to each of Its
clients with an aide present, not less than every 60 days. However, it seems the auditors applied a ~48~ hour
supervision rule each time an existing home health aide provided services to a client for the first time.

We do not believe the NJ Medicaid regulations require BAYADA to provide a supervisory visit each time an
existing employee provides services to an eXisting patient tor the first time. We believe the requirement is for a
registered nurse to provide supervision to an aIde assigned to a newly admitted client wIthin 48 hours of the
start of care, and BAYADA has met thIs requirementwilh the cited clients and employees. Based upon this, it
appears the OIG's application of the 48 hour rule is inconsIstent with NJ Medicaid requirements, The regulation is
tied to the start of service for each cUent and is cUent focused, nat employee focused .

Currently and during the time of the audit, BAYADA provides a cITentassessment prior to the start of care with In­
home visits conducted by a registered nurse at least every 60 days for direct supeNislon of Ihe aide to ensure the
client's ~eeds are being met and the care plan has been properly Implemented. Further, BAYADA's reqUirements
for ongoing supervision actually exceed the regulations for peA services. We reqUire a written plan of care be
completed and present in th e client's home at the time services are initiated, the registered nurse conducts
telephone reviews with the client between j n~home visits and increases In~home visitation to monthly frequency
for clients whose condition meets certain criteria {Please see 8AYADNs attached pages 255-259},

         Ctl//lprrssioll. E.wcflcllce. Rc/inbility.
                                                                                                                          Page 3 of4




          -W~AYADA·
                  Home Health care

        Additionally, we did not provide a supervisory visit each time an existing employee began work with an existing
        client; however, we do orien t the aide to the case by telephone or when warranted, a home. visit Is made. To'
        provide that level of supervision would require each of our personal care offices to hire additional registered
        nurses, which would make providing personal care services cost prohibitive and IntrusIve to clients. Therefore,
        BAYADA's practice is one we believe to be consistent with the Intent and meaning of the regulation, 85 well 85
        consistent with industry practice.

        After consideration of the above, we find no instances in whIch BAYADA failed to meet the requirements of the
        applicable Medicaid regulations. (Please see BAYADA 's attached pages 185-246 which documents supervisions
        (or each client cited not less frequently than avery 60 days, the date of hire and start of care dales for the
        employee with the client and supslVislon ·notes.)

We believe that the Interpretation and evaluation for compliance that was applied by the OIG auditors Is actually
consistent with a specific accreditation standard of CAHC. Specifically, CAHC Standard V, Section 13E. slates
·Orientation of certified homemaker~home health aldeslfield nurses who are ongoing emuloyees ol'J.jID ongoing cas.§:

            Th e orientation shall be perfonned by the second day of placement on the case. 

            Il may be conducted either In·home, by telephone, or in the office. 


While this standard does not apply to BAYADA because we are accredited by CHAP,lhe audItors may have referred to
the CAHC !:tandard Instead of the New Jersey regulatory requirement or the CHAP standard.

        One of the violations cited by the OIG was due to a deficiency In providing an initial client assessment.

       N.J.A.C., Section 1 0:60.J.S{a) states: The registered profeSSional nurse, In accordance with the physician's
       certification of need for care, shall perform an assessment and prepare a plan of care for the personal care
       assistant to implement. The assessment and plan of care shall be completed at the start of servfce. However, In
       no case shall the nursing assessment and plen of care be done more than 48 hours after the start of service. A
       personal care aSSistant nursing reassessment visit shall be provided at least once every six months or more
       frequently if the beneficiary's condition warrants, reevaluating the benefICiary's need forcontlnued care.

       BAYADA's practice was and currently Is to provIde an initial assessment at or prior to the start of the client's care,
       with additional visits not less than every six months, and more often when warranted by client status or change In
       condition. In the one case cited by the OIG for this defiCiency, pages 247-254 provIde the assessment
       documentation for Rickie R. (the client was admitted to service on July 18, 2006 and a Nursing Assessment was
       completed at that time. A reassessment was then completed on December 20, 2006 and again on June 14, 2007
       meeting the Medicaid 6 month req uirement).

BAYADA Home Health Care will continue to provide services with excellence in accordance with the program
req uirements and regulations that govern our work.

To ensure BAYADA's offices providing personal care services remain compliant with federal and state regulations
governIng our work, a quality assurance program is conducted by the corporate Nursing office which includes:

       quarterly unannounced audits of each office 

       direct obselVation of office and field staff perfonning their jobs 

       a standard process measurement tool, 

       randomly selected client and employee file revIew 

       randomly selected home visits 

       immediate feedback provided to each office Director 

       mandatory corrective action planning and implementation If needed 

       ongoing performance improvement planning and implementation 





                Ct1/llpnssit)/! . Excellel/ce. Relinbifi/)l.
                                                                                                                           Page 4 of 4




          *         SAYADA"
                    tlorwt HNlth C.r~
Ttl supplement qllar1erty audits, data Is toIIectlMf regular:y, reviewed and aIlilIyted IrEluding klformation from ongoing
client ami allnual employee sallslactlon SUMYS, client incident reports and enen! Infedlon reports. If any deliclenclas era
found, B performance Improvement plan Is put Into place and monltOll!d for Improvement to ensure e)(pected outcomes.
All di!ta 1$ !;hored with end reviewed by BAYAOA's leaders, Includinll 1M.

Fur\f'lel', BAYA'JA maintains a cIo6e relatlonshlp with reprasenlatiYes al the DMsJon of M&dical Assistance and OMsioo of
Oi5abUity SI![vices. Our DlrectOfS rogularty review BulleUns lind Implement any needad changes to the way service, are
delivered. II any concerns arise. we routinely reach out to \he Division fordarllk:aUon and direction.

BAYADA remains highly focused on compliance with program requirements \r)c/uding 8 pre-bilin g c."IecklIst which Is
reviewed prtor to a bill being submllle:l fO( ~ rendered and confirming supervlsol'y visits and reassessments are
compietcd in ~ccordonco Vlilh program requIrements and state l'e9ulatlonl.lvr. a result of the limited findings, we have
I:IstOlbtislled additional meaSllrllS 10 provide 115 ftmtler confidence In the accUrBcy of our billed services.

1hope this letter will S8(V8 10 resolve the deflde~5listed In the DIG droit report If therB ere dlscropancies between
what 70111" auditors found and what WI /'lave prooeede tl, we wou!d webIme lhe opportunity to furthllfdlscuss the findings
wilh you.

Sincerely.                         v .

C\71---f &4
J.Merk 1l~II!.da
President

EllClosures




                   G,mpnss;',". £wt:l/~I"r:. Rt/inbiliIY.
                                                                                                       Page I of 9

                             APPENDIX E: STATE AGENCY COMMENTS 





                                                Jilbm Dr ~do Jj....y
CURlS CWUSlll                                  DEPARTMENT OF tl UMAN SEIWICES
                                    DIVISION Ot' MEDICAl. ASSISTANCE AND Il EA'.'" SUV1CfS
KI!o.I GUADAGNO                                           1'0 Box 1 12
                                                                                                 JEHNlfU      vuu
   f.l(;Q •..,....."                               TItUHOH, NJ 0862S-0712                         C.......   iu,_
                                                                                                  V ......u.tIlIlAU
                                                          July 25, 2012
                                                                                                       "'~



           Mr James P Edert
           Regional Inspector General for Audit ServICeS
           Department of Health and Human ServIces
           OffICe of Inspector General
           Office of Audit Services. Region II
           Jacob K. Javiis Federal BUilding
           26 Federal Plaza. Room 3900
           New York, NY 10278

           Re: 	       New Jersey Response-Re view of Medicaid Personal Care Claims Submitted by
                       Bayada Homo Health Care, A· 02·10·01001

           Dear Mr Edert

           Enclosed are the New Jersey Department of Human Services's comments on the Department of
           Health and Human Services Office 01 Inspector Genera!'s draft audit report A-02-10·01001
           enhUed New Jersey Old Nor Always ClaIm Federal Medicaid Rellnborsement for Personal Care
           Services Made by Bayada Homo Healrlt Core 1/1 Accordance WIlli Federal alld Stare
           Reqwrements

           Thank you for the opportunity to comment If you should have any questions. please contact
           me or Richard H Hurd at 609·588-2550 or bye-mail at Richard H Hurd@dhs slale nJ us

                                                          Sincerely,



                                                          Valene Harr
                                                          Director


           Enclosure
           c      Jennifer Velez
                  Richard H Hurd
                                                                                                                                                                              Page 2 of9




                                                                    Jitat.            of   Nefn :Jj.... "Y
                                                                     DI I',\MI~II"II'III I I\U"~I R \'I' I ' 



CII HI ,CI I~I' III
                                                      nl\ " " "    (11 M I III{' II   i\" I~ 1 \N\ 'I \Nu ll l II II I   "I   I(V"' I , 

                                                                                                                                                                    J I "N il I   I{   Vill I
    (   "'".,,,.....                                                            I ' .... Ih~'. NJ 'IM~ S olJ1t !                                                      ('"'''8'''''''''~'''

K il l ( il'II>.\< ,'I/ '                                                                                                                                             \' 11.1 It ll II AIIR
  II I ,,~,"""'.'                                                                                                                                                          ",..... ,,,,


                             New Jersey Department of Human Services Comments on the Department of
                             Health and Human Services Office of Inspector General Draft Audit Report A -02­
                             10-01001 on Medicaid Personal Care Claims Submined by 8ayada Home Health
                             C.re


                                                                               Table of Contents
               A.        Introduction ....... .. ........ ,.. ..... .... ...                                                                                     ...... . 1 ­
               B.        Summary of Response                                                                                                                       .... - 1 ­

               C.        Background                                                                                                                                  .. - 2 ­
               D.        Alleged DeficienCies                                                                                               ............................ - 3 ­
                    1.      Missing Documentation of In-Service Education                                                                                            .. ·4 ·
                    2,      Missing Documentation of Nursir1Q Supervisior1 .                                                                                              5
                    3.      MiSSing Documen tation of Nursing A ssessmer1l .                                                                                            - 5­
               E.        Response to Proposed Overpa yment Recovery .                                                                                               ... ·6·
               F         Condusion ._ .                                                                              ... . ........ _........................... ·6·
                                                                                                                                                        Page 3 of9




A . Introduction

       In June 2012. the Department 01 Health and Human Services ("HHS") Office 01 Inspector
General ("DIG") issued a draft report entilled New Jersey Old Not Always Claim Fedem/
Medicaid Reimbursement lor Personal Coro Services Made by Bayoda Home Henllh Care in
AccotdanC/1 wilh Fudomi wId Stillc Roquifomonls ("Draft Audit ") cover ing claims from January
1, 2008 through June 30, 2009. The New Jersey Department of Human Services ("DHS") has
reYlewed the Draft Audit, and collected Information from DHS's Diyision of Disability Services
("DDS"). DHS's Division of Medical ASSistance and Heallh Services ("OMAHS"), and Bayada
Home Health Care ' Bayada"). DHS also reQuested. received. and reviewed information from
the OIG on the amount it recommended recouping for each allegedl y defiCient claim
B. Summary of Respo n se
         DHS slrongly disagrees Ihat Ihe OIG's findings supportlhe recomme ndation of the Draft
Aud it thallhe State return 5774.274 in Federal funds paid for personal care cl aims provided by
Bayada      The Draft Audll Identifies three categories of "deficienc ies" wilh respect to 100
reViewed claims, selecled on a random basis II concluded thai the claims (or portions of
claims) affected by these -defiCienCies' amC\Jnted 10 an overpayment by Ihe Federal
government of S216 ' II Ihcn ex trapolated Ih,s conclusion 10 the full unIVerse of Bayada
personal care claims for the IS-month review period, 10 arrive at Ihe amount of $774 ,274 in
alleged ' overpayments" of Federal funds,
        We respectfully disagree with th is conclusion, All bu t two of the DIG's ' deficiency'
findings are predicat ed upon a flawed reading of Sta te law, I he D IG faults Bayada for fall ing to
comply wilh a requiremenl Ihal is neither in Ihe lext of Ihe re levant regula tions nor consistent
With Slate practice, These nine claims, therefore, are not defiCient
         In additio n, none of !he three categories of "deficiencies' involved demonstrated
overpayment 01 any kind, Rather, the findings were only [hat particular documents were
missing from the revtewed file . But the overall eVIdence produced by the review clearly
demonstrates that the underlying personal care services were valid, allowable, and rendered 10
eligible benefiCiaries, notwithstanding the absence of certain documents . For all of the alleged
deficiencies, the m issing documenlailon rela ted not to federal requiremenls but 10 st ate
reQUirements . N ei ther applicable Stale 100w nor State practice requires recovery of payments
made to providers even if there was a Violation of Ihose state requiremen ls. When the Stale
determines [hat v;olallons of these requirements have occurred, it has a policy and practice of
requiring prior authorization and/or iSSUing remedia tion to prevent further violations. Moreover,
lor each of the "defiCiency' categories at Issue, there is no requirement under State law thai
providers keep records documenting compliance . ~
        DHS also challenges the DIG's findings concerning the specific claims selected for
review because providers in New Jersey have been able to provide documentation
demonstra ting that they complied with Ihe applicable laws. For the re asons detailed below, it
wou ld be unreasonable lor the Fedoral government to require recoupment of close to S8oo.000
lor services prOVIded by Bayada.




, I h~ DrOll! /lull;( """llill~ ,1 uilly "I;, i",s '(,r 1"'111(111:.1 ,',II.' ".·,."i~cs . I'hn"'~',,'. r . IlIi, 1"·'I",n-.:, when Ihi, '~")lIJI1'"
''I.'fcr.' 10 11...- ",,,,,,unl "fa d :,i",. i. "'.;,,, ,,"ly.II III., !l1lk'lInI ;ndud~1l "n Ih(' j'l<:Ntn~1 em" servin's line I1fc:,,'" d~;",
:mrl c~cllI,k" ~II~ "",,,ums ,'I"im""        I,..     ".her Medi" ;'KI ....' .... it·",.
1 N, ~hill~ ill (hi"   ,''''l,'m~nl i~ i"(~,,,lnllo   :.. Idr,·". ,',11,>1)0"" o ,wn"l.l   h~ M,"I.l,,~,irl   rrallrl ,,,,.1 abr."e 1'1'I"' i~,,,,,~,

                                                                         - 1­
                                                                                                                                           Page 4 of 9




C . Background
        DHS is the single stale agency responsible for administering New Jersey's participation
in the Medicaid program. DDS operates the State's personal care assistant ("peA") services
program , wtllch provtdes personal care, household duties, and other health·related tasks to
benefICiaries With tong -term chronic ~ maintenance hC<:Illh care needs In their place of
res idence See N.J. Admin Code § 10'60-3 1
         Prior to 1998, DDS recognized tha t certain perSOflal care providers were
underperiormlng. and determined thai personal care providers should be reqUired to obtain prior
written or electrOflic auth()(izalion for peA services pursuant to a State-mandated procedure.
Beginning in 1998, the Stale phased in providers 10 obtain prior authorization on a county-by­
county basis Effecti ve July 3 , 2006, the Stale amended its regu lations 10 include this prior
atJthorization requirement. See id. § 10.60-3.9. Since Ihis prior authorizalion requirement was
implemenled, the PCA program's growth has decreased substantially from 25% per ye ar, to
between 3% and 4% per year.
         DDS requires each personal care provider to be accredited by loll least one of four
accrediting org a nizations ~ both "initially and on an ongoing baSIS' in order to participate In the
Slate personal care program Id, § 10:60-1 2, see [llso Id. § 10:60·3. ' (a) DOS has entered inlo
memoranda of understanding r MQUs") With the accrediting organizations that clarify that these
Ofganizahons muSI complete a comprehensive on-site organizational audit once every three
years and an annual on-site clinical service audit for each PCA agency The MOUs fUr1her
provide that the accreditation process includes an assessment of the agency's -fiscal processes
as they relate to documenting service provISion, time tracking, preparation and submission of
claims data to the slate.· Standard Memorandum 01 Understand ing Between DOS and
Acc rediting Body, App' ~ A. DiVision StandardS lor Accredibng Bodies (on file with State). This
provision is "intended to determine if the PCA agency /Jas a system in place . , , whicn results in
the production of reasonable claims to tna slate agency." Id. App 'x B. Under the MOUs, an
accrediting agency must notify DDS if it learns th at a PCA agency is not in compliance with
accredi\lng standards or Ihe PCA agency IS in danger of losing its accreditation, Given its
lim iled staffing, the Slale relics upon the accrediling agencies to monitor peA providers' fiscal
processes "Inri In <'Iler! it In deficienCies in Ihese processes so that corrective action can be
laken.
         On September 9, 201' , New Jersey submitted 10 the Cenlers for Medicare & Medicaid
Services ("CMS' ) a comprehensive demonstration waiver applica\lon pursuant to Section'" 5
of      the     SSA,         42    U.S.C     §      1315         See     hllQ /twww.stalenjusi
humanservlcesfdmahs/homelwaiver.html The waiver application seeks to implement effective.
long-Ierm , cost-containing changes to Ihe Slale Medicaid program. New Jersey's application
provides improved quality and outcomes through a varie ty of measures, Including mandatory
managed care enrollment, which the State has already begun impleme nting. The PCA program
w as subsumed into managed care in July 20 11 Currently. over 80 percent of PCA cases nave
been transi tioned 10 managed care. and Ihe remai ning cases will be roiled in over the com ing
months. Under the Slalc's managed care model. PCA servIces musl receive prior authoriZation
and are, along WIth olher covered medical services, monitored by Ihe managed care
organizatlOfls The accrediting agencies continue 10 have monitoring responsibilities, meaning
thaI after the full transitIon to managed care, both managed care organizations and accrediting
agenCieS Will momlor PCA providers' compliance With applicable MedicaId regulations.



, rI,,' fUllf "~n~'\l;II"iI orl1,,,,;/,,I;,,", ,1(,' II><: (""TlIIU" ..>n <>II 1I"~"'diI;\Ii"n   "lr   11<>1",' {',,,,' I,\C., Ihc J",nl
1,.""""" ;~~'V" 0" ",·~r"dh.11 ;<In (If I k"llh~"rc I X);"uil;,d,,,,., . Ih~ Noll","al IIs"",~,\;on I; ... II ,~",,· ClIre, 11",1 Ihe
CH"'"H""I)" lleahl!      1I~~ ....·,I;I",i,,,, I'r"~"",,

                                                                       - 2­
                                                                                                                                          Page 5 of 9




           The State has also implemented corrective measures specific 10 the types of
"deficiencies· Identified by the Draft Audit thaI are deta iled below.

D . Alleged Deficiencies

         The OIG 's Dra ft Audit concludcd that DHS d id not always ensure that 8a yad a's claim s
for Medicaid peA services complied with applicable Federal and Slale reQui reme nts. The
auchlors determined that of the 100 sample claims from January I , 2008 \0 June 30. 2009. thaI
were examined, 90 (totaling S2.152) were in lull compliance . and 10 (totaling 5216) were nol.
The auditors recommend disallOWing the entire amount of the "defiCIent" claims. The Draft Audit
Idenlified 11 alleged deficiencies cont ained in those 10 claims which lall into the following three
categories:
           M ISSing documentation of personal care assistant's in-service educa\lon ( I claim)
      •    M issing documentation 01 nursing supervision (9 cla ims)
      •    M issing documen tat ion of nursing assessment (I cl aim s)

          The OIG's finding of -deficiencies" for alleged lack of nursing supervlslon-wich
constitute nine of the eleven "deltclencles'-Is premised upon an incorrect reading of the
relevant State regula tions Th e OIG reads requiremen ts into the regulations that are neither in
the te)(t of the regulations nor consistent with the State's reading 01, and enforcement of non­
compli ance wi th the reg ulations, 1\ would be unreas onable to seek re cou pment for these
deficienCies.
          In ad dition , as is shown in the following paragraphs , all three categ ories of alleged
de ficiencies involved technical or documentation problems. Unlike other State regulations not at
Issue in the Draft Audit. the regulations for these categones do not expressly provide for
recovery of payments or recoupment as the appropnale remedy for non-compli ance Compare
k1. §§ 10.60- 1.2 , 10'60-3.5 (ex cluding any reference 10 recoupment Of repayment ), With id. §§
10 .60- I .B. I O,60-4 9(c) (specifying that violations will be reme<lIed by 'recover(y of] any
payments' and "recoupment").           N or IS It New Jersey's practice to seek repayment or
recoupment from prOViders for Violations 01 these provisions, Instead, New Jersey generally
requires the PCA provider to engag e in remediation and obtain prior authorization of PCA
claims 10 prevent future violatio ns. If a provider repeated ly violates Sta te Medica id provisions.
especia lly th ose relating to Medicaid fraud and abuse, the accred iting organiz ation may strip it
of its accreditation, DDS m ay recomme nd that its license be revoked or not renewed , andlor
DDS may suspend Me<licaid payments to the provider, effectively preventing it from continu ing
to parti cipate in Ihe State Medicaid program Thus. the alleged technical or documentation
"deficiencies" do nOl support a conclUSion that payments were Improperly made.
          Federal law does not provide a baSIS upon which HHS ca n recoup for these types 01
tech nical or documenta tion problem s whe n the State does not require repayme nt or
recoupment In t he past. the OIG has taken lhe position that claims may be d isallowe d by the
Federa l g overnment pursuan t to a prOVision in OMS Circular A-87 thaI states: "To be allowab le
under Federal awards. costs must .. [ble alllllOrizcd or not prohibited under State or local laws
or regulations: 2 C F R. PI 225, App')( A, C. l c (emphasis added). Under Ihe plain tanguage
of this provision, the Federal government's abllily 10 recoup /urns Ofl State law. Here , for all
three "deficiency· categones, neilher State law nor Stale praclice provide for recoupment as the
appropriate and general remedy , and therefore the ' costs "-that IS. payments to Medica id
providers- are "not prohibited- under State law, Thu s. recoupm ent is unwarranted and
inappropriate for the in-service education, nursing supervision, nurSing assessment, and Board
of Nursing cenification "deficiencies: '


, I h" Ill".., '~I egnric , nf dlM:llmenl<ll'n" "dctk'end,', " .1i"·u,,,,oI 31>.",,, arc <.I"t;II~,,"II:.hk Irl'l'" 3 ea>c ." "hkh the
. m<krl~i"\t '<IHle 1;\" "~pn:"'> nll"I'I""" ~k",.;al" Il.I>",,·,,1> up,,,, ~""'I'I~III<:c "1111 ""I1~ Mt"<li~·,,,o.l ruk", 1"0<.1110,,
                                                                  -3­
                                                                                                                                                          Page 6 of9




           Nor are peA providers requ ired to retain records rela ting to these technical regulations
in order to be reimbursed for furnished services. Federal law requires thai Medicaid providers
keep "fiscal t'6COrrls to assure that claims for Federal funds are in accord with applicable Federal
requirements· for three years, but does not m andate the keeping of records required by Stale
law _ 42 C FR. § 43332 (emphases added) _ The State Medicaid statute requires only
"maintenance of records required for reimbursemelJl"-which means "individual records as are
necessary to fully disclose the name of the recipient 10 whom the serv ice was rendered , the
date of the service rendered , the nature and extent of each such service rendered. and any
add itional in formation"-rather than maintenance of all records showing compliance w ith State
law, including tec hnical Medicaid regulations. N.J. Sta\. § 30:40-12 (emphasis added); :ice also
N .J. Admin. Code § 10:49-9.8(b)(t) (requiring Medicaid providers "\0 keep such records as are
necessary \0 d isclose fully the ex/ent of services provided, and, as req uired by N.J S,A,30:4D­
12(d)" (emphasis added)) ,~ The State·s standard Medicaid provider agreement in effect dUflng
the aud it period stales that the provider agrees ' [t)o keep such records as are necessary to fully
dil"oc/ol"oe the exlenl of services prOVided to indiViduals receiVing assistance under the programs
administered" by DHS. Standard New Jersey Medicaid prOVider agreement (on file with the
State) (emphasis added) , Thus. the fact that the providers could not provide certain records
relating to these techn ical regulations does not provide a basis for recoupment of the Federal
share paid for the underlying claims.
           Below. we turn to each category of "defic iency" In turn ,

              1. M issing D ocumentati on of In"Service Education

Draft A ud it Find ing: The Draft Audit determined that for one of the 100 sampled claims
Bayada cou ld not provide evidence that the personal care aSSistant in question had completed
12 hours of annual in·servlce education in the calendar year in which services were
administered or during Ihe preceding 12 months. as required by section 10:60"1 ,2 of the NJAC .
The FFP paid for the allegedly deficient claim is 5808, The Draft Audi t would reject the entire
amount of this cla im
DHS Resp o n se: There is no Federal requirement that attendants undergo 12 hours of annual
in-service education and therefore no justi fication for withholding Federal fundS based on a
finding that documentation of such education was not provided. Even if the State requirement
had been violated. Sta te law does not requ ire either withholding payment from providers for all
services furnished by the attendant during a year in which the annual in-service education
cannot be documented. or the maintenance of records relating to in-service educa tion .
        In the sole "defiCiency: Bayada has provided documentation demonstrating that the
employee underwent at least 13 hours of in-service training within 14 months of the date of
service.    Far from indicat ing that Bayada systema tically violates the in-service training
requ irement. the fact that there is only one isol ated case of the 100 sampled cases in which
documentation of in·service education is alleged to be missing demonstrates that Bayada


,I"I~ t,,'~   ml( ~.,pbil"'u Ih,' ·'ci"·,,m'l~nc~ .; ,IT C"lHlili",,~ p",,,,nm I" "h"'h 11"·IS!;u,·1 wo«ld h"v~ u,· ,,,~d nn
","~rpn) men!      >ku,,·(i('l,,:· N. r , S(<I"· 11.·,,·, '1 ,...,..... S,·"I'." . IMII N". Il.1~ \ 1'1'/1). (I. s. r V'·I' " "1"-"' · s..,....... DAI3
N,,- 1112 (I'IX'I) (,·"nel"d;,,» p")IH~n I S ",·r,· ,,,,I ''''Ih,,,';/~d u....kr ,\.,k I:I\\" "., "''Iuir,·'' by OMB Cir.'ubr A-8)
t...·~"II'C I h~ N~ " Y "r~ f~>",I,,\;ur\ ,,1 i>~\!~ III di,\ ""I ;trdni N.· ... Y"rk diSCfClilln 10 pay rur 1I'''Komrliam ""C\'ic~s
anoJ (2) h,,<1 '~rved a, Ihe h'lSis f(lr Ihe N,'\I' Y"rk·, """,, pr"vidc'r-~I", ,'iti,· d;":lll<lwann',).
' Th" ' ·~linical rcc"roJs··l'r"vi~i(>n II! Ih~ NJ ,\(' d,,~., 1h,1 p'>lvid. Ih~ lilll~ p<:ri,...lli>r \\"h i(h ~ b~,,~Ii~i;!ry· s d;"i,',,1
                                                       *
r~~"r", 1I,~oJ I" b<' JI",;nmilh'd. ,.,.,. NJ AC 1U.60-J .6. "ur 'Ire Ih!! "'~"n.h "l"cr~d b, 1\"· Sial.· ro-koJ;,'"id
r~l'ur"ke~p;llg pr,,\"; siOI1~ d.·." ,rib..,d "h(,,~. "h;eh R'I"I.- on l~ 1<1 r~~md , "r ,,·illlh\lr.<.lh l ~ "·rvi£~s. Wilik IlIc$c
~lilll,~1 r~~"nls 111;\~ t>c rdn'anl tI> Ih~ ;lccr~d;l:ni{]1I proc~ss. th( Siale tI,,,,, lie>! r'·'luil'<' r~'·0l' pnKI11 rf</111 "pruvjoJ"r
Ih,'1 dll\.'~ ,w( mainl;,in lh~"" "-'<:01\1, I,or s~ w,,,l yea",
                                                                           ,
                                                                         - ­
                                                                                                        Page 7 of9




uniformly requires that allendants undergo the requisite training and documents such training .
Rather than demonstrating that the training did not In fact take place , the copies 01 the training
documentation for this case may have been misplaced or lost. In the sole case In question, the
record documents that eligible sef\llces were provided 10 eligible recipie nts In an appropriate
setting, in accordance with a physician-approved plan of care This satisfies the Federal
requi rements for FFP, and the failure to meet a State requirement of prior approval for legal
guardians, even jf proved, does not justify Withholding thai FFP,
        In any even t. the Stale is prepared \0 take cOfrective actions to prevent future viola tions
of the in-service education requirement. DDS plans 10 modify Its MOU WIth the PCA accrediting
agencies 10 reqUire Ihem to report any defiCiencies and areas of nCK'l-compliance to DDS, and
for these del iclenc ~s to be corrected, prior to Issuing a final rat ing score. Moreover, DDS is
encouraging accredillng bodies to develop standards on ownership and maintenance of peA in­
service training records, including for transfemng employee training records In the event Ihat
employees subsequently leave the agen cy after they are trained.

        2. Missing Documentation of Nurs ing Supervision

Draft Audit Finding: The QtG auditors determined that lor nine of the 100 sampled claims
Bayada did not provide documentation of direct nurs ing supervision which must be prepared
within 48 hours after the stan of service and at least every 60 days thereafter pursuant to
section 10:60-3.5(9)( 2) of the NJAC. Under Slate law. "[aJdditional supervisory VISits shall be
made as the siluatlon wa rrants , such as a new [personal care assistant] or in response 10 Ihe
pnySIca l or other needs of the bene ficiary." The total FFP paid for the allegedty defiCient claims
is 5208.24. The Draft Audit would witnnold these claims in Ihelf entirety.
DHS Respon se:        There is no Federal requirement Ihat direct nursing superviSion be
penodically performed and documented , and the refore no jus\ificauon for withholding Federal
funds based on a findll'l9 Ihat such documentation was not provided
In all nine cases, the QIG applied the 48-hour requirement to Ihe "additional supervisory visils"
reqUired when a personal care assistant who did not previousl y care for the benefiCiary takes
over the beneficiary's care . The Stale regulation. however , does not apply Ine 48·hour
requirem ent in this Circumstance . Instead, it describes person:!1 care assislant turnover as a
Circumstance warranling an addi tional supervisory v isil, witnoul providing that nursing
SUperviSion be provided wilhin 48 nours of such turnover: Ihe 48 hour requirement , Ihus, applies
only to the initial slart of service for a beneficiary This is consistent with Ihe State's long­
standing practice of find ing violaliCK'ls of Ihe 118·hour rule only when the SUperviSion does not
take place within 48 hours of the inilial slart of service for eaCh beneficiary. Thus, none of the
claims thaI allegedly fa il to comply Wllh Ihe nursing supervision regulation are in fact
-deficiencies.•

       3. Missing Documentation of Nursi ng Assessment

Draft Audit Finding: The Draft Aud it determined thaI for one of Ihe 100 sampled claims
Bayada could nol provide COPieS of a registered nurse 's assessment of Ihe benefiCiary's need
for PCA care, which must be prepared Within 48 hours after the start of service and at least
every six months thereafter pursuant to section 1O:60-3.5(a) of the NJAC. The FFP paid for the
claim in question is $24 T he Draft Aud it would reject this entire claim.
DHS Response: There is no Federal requirement that a nursing assessment be periodically
performed and documented, and Iherefore no justification for w1ttltlolding Federal fund s based
on a finding thaI such documentation was not provided . Even If tn e State requ irement had been
violated. State law does not req uire either Withholding paymen t from providers for the services
furnished by the attendant or m.untenance of records relating 10 nursing assessments. For Ihe
Single claim in question. 8ayada has already provided COpteS of nursing assessment fonns
demonstrating Ihat after an iniliat assessmen t was perfDm'led on the day services started,
                                                - 5­
                                                                                                       Page 8 of9




reassessments were complete d within every SIX months there after. The OIG faults Bayada for
completing one assessment SIX months and 17 days after Ihe prior assessment, when in fact
this resulted only because this prior assessment had been completed early. It stre tches
credulity 10 find a deficiency under th ese Circumstances  The lact remains that 8ayada
completed an assessment within every si)( month period followillg (lie service s/art dolc. It
would be unreasonable 10 seek recoupment every lime a provider IS unable to perlorm a re~
assessment exactly t80 days after the last assessment.

E . Respo n se to Pro p osed Overpayment Recovery
         After calculating Ihallen claims or portionS of claims derived from the sample resulted In
overpayments by Ihe Federal government of $216. the Draft Audit used "statistical software" to
extrapolate the total re fund due to the Federal government to be $774,274 in FFP for allegedly
unallowable PCA service claims by Bayada from January 1, 2008 through June 30, 2009. The
Slate lakes strong exception to this conclusion,
         As shown above. there is no justifi cation for recovery of any Federal funds. Wi th or
Without extrapolation, with regard to any of the questioned cl aims. These claims dO not involve
instances of overbilling that are subject to recoupmen t
         As fOI the claims allegedly "defiCient' solely fOf not providing adequate documentation,
the findings of the Draft Audit do not support a conclUSion that payments were Improperly made.
Rather, they show thaI only a small number of files are missing a document that would confirm
the satisfaction of a particular reqUirement The overwhelming demonstration in the 100 sample
case records of compliance with several of the requirements in question (including compliance
in 99% cases With the State in-service education and nursing reassessment requ irements)
negates any conclUSion of non-compliance in the few instances where a document was missing
from a file .
         Further. given that the absence of documentation in all claims relates to Stale
requi rements thai do not mention recoupment. rather than to proviSions of the Federal
reg ulations, 1\ IS in8ppropriale 10 w ithhold Federal fund ing. Nothing in State law requires th at
funds necessarily be Withheld in any Instance Where a case record fails to document comp liance
w ith these State requirements.
         In addition. extrapolation 01 the results to the cas eload as a wflole to recover a
substantial amount from the Stale is inapproprl9te given the continuing efforts of the Stale
(derailed above) to assure high quality and complIant performance by PCA providers after the
conversion to a managed care detrvery system

F , Con clusion
         The results of the DIG irwestigahon. reflected in the Draft Audit. are encouraging to DHS
because they demonstrate Bayada's extremely high level of complia nce. Especially given the
substantial corrective measu re s the State has taken since the audit period , including swit ching
over to managed care and Implementing a number of quality control measures, the results of
the Federal re view should provide com fort 10 Federal offiCIals thai Federal funds are being
property spen t in the case of Bayada's PCA services
         Based on the Draft AUdit results, the State is not prepared to repay any amount of the
recommended disallowance. as the vast majorIty of Ihe OIG's ' deficiency' findings are
predicated upon a flawed reading of State law, and there are no instances of overbilling or
viol ations for which recoupment is the approprIate remedy under State law and practice.
MOfeover, all the alleged deficiencies Identified by the DIG inveshgation, reflected In the Draft
Aud it, are teChnical in nalure a nd by no means demonstrate that 8ayada systematically
provides PCA services to benefiCiaries who are Ineligible for the services, or prOVides services
not covered by the Medicaid program , Given the isolated nature of the "defiCiencies: it would
                                                                                         Page 9 of9




also be inappropriate 10 extrapolate any "deficiencies" from the 100 sampled claims to the
784,945 peA cla ims Bayada submitted during the lime period cove red by the audit




                                           ~   7~
